         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Early Warning Report




       Website for Coal Combustion
       Products Partnership
       Conflicts with Agency Policies

       Report No. 11-P-0002

       October 13, 2010
Report Contributors:                           Carolyn Copper
                                               Steve Hanna
                                               Tapati Bhattacharyya
                                               Anne Declerck
                                               Richard Jones
                                               Chad Kincheloe
                                               Brooke Shull




Abbreviations

C2P2         Coal Combustion Products Partnership
CCR          Coal Combustion Residual
EPA          U.S. Environmental Protection Agency
OGC          Office of General Counsel
OIG          Office of Inspector General
ORCR         Office of Resource Conservation and Recovery
OSWER        Office of Solid Waste and Emergency Response
                        U.S. Environmental Protection Agency 	                                             11-P-0002
                                                                                                     October 13, 2010
                        Office of Inspector General


                        At a Glance
                                                                            Catalyst for Improving the Environment

Why We Did This Review             Website for Coal Combustion Products
We initiated a review to           Partnership Conflicts with Agency Policies
determine whether the U.S.
Environmental Protection            What We Found
Agency (EPA) followed
standard practices in              EPA’s C2P2 Website presented an incomplete picture regarding actual damage and
determining that coal              potential risks that can result from large-scale placement of CCRs. In its May
combustion residuals (CCRs)        2010 proposed rule, EPA showed that environmental risks and damage can be
are safe for the beneficial uses   associated with the large-scale placement of unencapsulated CCRs. According to
EPA has promoted. Our              EPA’s proposed rule, unencapsulated use of CCRs may result in environmental
review identified issues that      contamination, such as leaching of heavy metals into drinking water sources. The
require immediate action by        proposed rule identified seven cases involving large-scale placement, under the
EPA. The results from this         guise of beneficial use, of unencapsulated CCRs, in which damage to human
report will be included in our     health or the environment had been demonstrated. EPA states in its proposed rule
final report on the safe use of    that it does not consider large-scale placement of CCRs as representing beneficial
CCRs.                              use. However, EPA’s C2P2 Website, which contained general risk information,
                                   did not disclose this EPA decision and did not make the seven damage cases
Background                         readily accessible.

CCRs are generated from            The C2P2 Website also contained material that gave the appearance that EPA
burning coal. Since 2001,          endorses commercial products. Such an endorsement is prohibited by EPA ethics
EPA has been promoting the         policies and communications guidelines. We identified 9 of 23 case studies on the
beneficial use of CCRs             Website that reference commercial products made with CCRs or patented business
through the Coal Combustion        technologies. All 23 of the studies were marked with EPA’s official logo but none
Products Partnership (C2P2).       had the required disclaimer stating that EPA does not endorse the commercial
EPA has maintained a public        products.
C2P2 Website and has used
other means to promote the         Although EPA has suspended active participation in C2P2 during the rulemaking
beneficial uses of CCRs. On        process, the C2P2 Website remained available for public searches, information, and
May 4, 2010, EPA released a        education. The C2P2 Website contained incomplete risk information on the
proposed rule to regulate          beneficial use of CCRs. The C2P2 Website also contained apparent or implied
CCRs.                              EPA endorsements that are prohibited by EPA policies.

For further information,            What We Recommend
contact our Office of
Congressional, Public Affairs
and Management at                  We recommend that EPA remove the C2P2 Website during the rulemaking
(202) 566-2391.                    process. Since our initial communication with EPA on June 23, 2010, EPA has
                                   removed access to the C2P2 Website content; however, documents relevant to the
To view the full report,           rulemaking are available in the docket. We further recommend that EPA identify
click on the following link:
www.epa.gov/oig/reports/2011/
                                   why actions prohibited by EPA policies occurred and implement controls to
20101013-11-P-0002.pdf             establish accountability. EPA agreed and proposed actions to address the
                                   recommendation.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                           THE INSPECTOR GENERAL




                                        October 13, 2010

MEMORANDUM

SUBJECT:	             Early Warning Report:
                      Website for Coal Combustion Products Partnership
                      Conflicts with Agency Policies
                      Report No. 11-P-0002


FROM:	                Arthur A. Elkins, Jr.
                      Inspector General

TO:	                  Mathy Stanislaus
                      Assistant Administrator
                      Office of Solid Waste and Emergency Response


This early warning report is to inform you of findings by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA) that require immediate action regarding the
EPA Office of Resource Conservation and Recovery (ORCR) Coal Combustion Products
Partnership (C2P2). The purpose of the OIG work was to evaluate whether EPA used standard
and accepted practices in determining that coal combustion residuals (CCRs) are safe for the
beneficial uses EPA has promoted. This report presents significant OIG findings identified
during our ongoing review.

Scope and Methodology
We conducted this evaluation in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

From March through July 2010, we interviewed staff and managers in ORCR, and we reviewed
relevant EPA policies, coal ash regulatory documents, and the C2P2 Website content. Additional
details on our scope and methodology will be included in a separate final report that will discuss
OIG findings on EPA’s promotion of the beneficial uses of CCRs.




                                                1

                                                                                                   11-P-0002 



Background
CCRs result from the burning of coal and are mainly produced by power plants in the generation
of electricity. According to industry estimates, approximately 136 million tons of CCRs were
produced in 2008. Since 1980, CCRs have been exempted from federal hazardous waste
regulation under the Bevill amendment to the Resource Conservation and Recovery Act.
Starting in 2001, the EPA ORCR1 has promoted the beneficial use of CCRs through C2P2.
C2P2 was initiated under EPA’s Resource Conservation Challenge voluntary program, which was
designed to promote a resource conservation ethic by encouraging the reuse of industrial
residuals, among other things. The program is sponsored by EPA and other federal agencies and
includes more than 170 public and private partners.

EPA has used a public Internet site to promote the beneficial use of CCRs.2 The C2P2 Website
included information on the types of beneficial use applications, results achieved through C2P2,
some information about risks and benefits of CCR uses, and case studies about specific uses of
CCRs. The case studies were submitted by industry and academia, and some include discussions
of commercial products made using CCRs.

CCRs have two general categories of beneficial uses. Encapsulated uses include incorporation of
CCRs into a bound or solid form such as concrete. Unencapsulated uses are not bound in solid
form, and include road embankments and agricultural uses.

On December 22, 2008, an estimated 5.4 million cubic yards of coal ash sludge were
accidentally released from a containment dike at a Kingston, Tennessee, power plant. The ash
extended over approximately 300 acres of land and generated a surge of water and ash that
destroyed three homes, disrupted electrical power, ruptured a natural gas line, covered railway
tracks and roadways, and necessitated the evacuation of a nearby neighborhood. An estimated
3 million cubic yards of the coal ash entered the Emory River in Tennessee and adjacent
tributaries. In the aftermath of this catastrophe, EPA initiated a review to determine whether
coal ash residues should be regulated. On May 4, 2010, EPA released a prepublication version
of a proposed rule to regulate CCRs for the first time. The proposed rule was published in the
Federal Register on June 21, 2010.

The C2P2 Website is Inconsistent with EPA Positions in the
Proposed CCR Rule
In the proposed rule, EPA identifies environmental risks and damage associated with large-scale
placement of CCRs. EPA also states that unencapsulated uses, such as placement on the land in
road embankments or agricultural uses, “have raised concerns and merit closer attention.”
However, the C2P2 Website did not contain risk information consistent with that in EPA’s
proposed rule. Discussion of the damage cases that have proven environmental or human health
damage from beneficial uses was also missing from the C2P2 Website. As a result, the Agency’s

1
  ORCR was formerly known as the Office of Solid Waste. 

2
  Since our June 23, 2010, communication to EPA regarding OIG concerns with the C2P2 Website, EPA has 

removed access to the C2P2 Website content. 



                                                      2

                                                                                          11-P-0002 



C2P2 Website presented an incomplete picture regarding actual damage and potential risks that
can result from large-scale placement of unencapsulated CCRs and other beneficial uses.

The proposed rule states:

         	 EPA is seeking comments on potential refinements for certain beneficial uses.

         	 EPA has identified seven damage cases involving large-scale placement, under the
            guise of beneficial use, of CCRs.

         	 EPA considers certain unencapsulated applications, such as fill in sand and gravel pits
            and other large-scale fill applications, as disposal and not beneficial use. EPA states
            that it does not recognize these practices as legitimate beneficial uses. EPA states
            that it has concluded that such practices raise significant environmental concerns.
            These concerns include risks from unsafe levels of CCR contaminants found in
            drinking water sources and in surface water.

         	 EPA has identified concerns with other unencapsulated uses of CCRs, such as the use
            of CCRs in road embankments and agricultural applications in the event proper
            practices are not employed. EPA states that these uses raise issues similar to the
            disposal of CCRs – that without proper protections, contaminants can leach into
            ground water and migrate to drinking water sources, posing significant public health
            concerns.

         	 EPA is considering approaches to better define beneficial use or develop detailed
            beneficial use guidance to supplement the regulations.

Although it did provide some general precautions on beneficial use, the C2P2 Website did not
identify large-scale fill applications as disposal, did not list known beneficial use damage cases,
and did not emphasize EPA’s concerns about beneficial use of unencapsulated CCRs in road
embankments and agricultural applications.

After issuing the proposed rule, EPA added a statement to its C2P2 Website that it has suspended
active participation in C2P2 during the rulemaking process (Figure 1). However, in its statement,
EPA neither disclaimed information on the C2P2 Website, nor removed Web content that was
inconsistent with its current regulatory position as stated in the proposed rule.

Figure 1: EPA C2P2 Web Statement




              2   2
Source: EPA C P Website, http://www.epa.gov/wastes/partnerships/c2p2/index.htm.




                                                            3

                                                                                      11-P-0002 



Some C2P2 Web Content is Misleading
The C2P2 Website stated it contained case studies that “are intended to be illustrations of coal
combustion product applications that the Agency believes can be beneficial to the environment.”
The case studies were not produced by EPA, but were submitted by industry and academia.
However, the case studies lacked EPA disclaimers and contained the EPA logo. EPA policies
require the use of a disclaimer for articles by non-EPA employees expressing their own opinions.
EPA policies also prohibit the use of the EPA logo in connection with the promotion of non-
Government-produced goods or services. Of the 23 case studies that were accessible on the C2P2
Website, 7 explicitly referenced commercial products and 2 referenced patented business
technologies. The absence of EPA endorsement disclaimers and the use of the EPA logo are
prohibited by EPA policies and imply the endorsement of commercial products by EPA.

EPA disclaimers

EPA’s Policy and Implementation Guide for Communications Product Development and
Approval requires the following disclaimers:

       	 Articles by non-EPA employees expressing their own opinions: “The material in
          this document has been subject to Agency technical and policy review, and approved
          for publication as an EPA report. The views expressed by individual authors,
          however, are their own, and do not necessarily reflect those of the U.S.
          Environmental Protection Agency.”

       	 Documents that refer to specific companies or products: “Mention of trade
          names, products, or services does not convey official EPA approval, endorsement, or
          recommendation.”

In addition, the EPA Office of General Counsel (OGC) has determined that other disclaimers are
permissible. OGC specifically recommended the use of the following disclaimer for case studies
EPA has added to the administrative record for the proposed rulemaking: “Disclaimer of
Endorsement: Reference herein to any specific commercial products, process or service by trade
name, trademark, manufacturer, or otherwise, does not necessarily constitute or imply its
endorsement, recommendation, or favoring by the United States Government.”

Use of the EPA logo

       	 EPA Administrative Order 1015.2A prohibits use of the logo in connection with the
          promotion of non-Government-produced goods or services.

       	 The EPA Communications Stylebook: Logo Guide states that the EPA logo is the
          signature and label of the Agency and that “[a]n EPA logo says and signifies that
          EPA produced (or co-produced) the material.”

       	 Ethics and EPA logo use: Every EPA employee is bound by the Standards of
          Ethical Conduct for Employees of the Executive Branch, 5 Code of Federal


                                               4

                                                                                        11-P-0002 



           Regulations Part 2635, which includes specific prohibitions against misuse of
           position. Misuse of position may be concluded from an inappropriate “appearance of
           governmental [EPA] sanction” and/or inappropriate endorsements. According to
           EPA, employees cannot allow the use of the EPA logo to endorse any nonfederal
           product, service, or enterprise. The only exception is the ENERGY STAR program,
           which has statutory authority to use the EPA logo to endorse commercial products.

EPA staff stated that they have no record of who applied the logo to the case studies, who
authorized its use, or who approved the posting of the case studies to the C2P2 Website.

Conclusions
The C2P2 Website did not disclose information about potential risks. Information concerning
actual environmental damage associated with some unencapsulated uses of CCRs was not readily
accessible from the C2P2 Website. As a result, the Agency’s C2P2 Website presented to the
public incomplete information on these issues. EPA appeared to endorse commercial products in
the C2P2 case studies through use of the EPA logo and the absence of the required disclaimers.
This use of the EPA logo is misleading, is prohibited by Agency policy and regulation, and
demonstrates a lack of management control over the content of the C2P2 Website. Although
EPA’s C2P2 Website stated that EPA has discontinued active participation in C2P2, this
disclaimer did not prevent the public from accessing and obtaining Agency information that is
incomplete or misleading and prohibited by Agency policy in some cases.

Recommendations
We recommend that the Assistant Administrator for Solid Waste and Emergency Response:

   1. 	 Direct the immediate removal of the C2P2 Website during the coal ash rulemaking 

        process. 


   2. 	 Identify the breakdowns in management controls that allowed actions prohibited by EPA
        ethics policies to occur and implement controls to establish accountability.

Agency Response and OIG Evaluation
Since our initial communication with EPA on June 23, 2010, EPA has removed access to the
C2P2 Website content and has made documents relevant to the rulemaking available in the
docket. Recommendation 1 is complete and will be closed in OIG systems upon report
issuance.

The Office of Solid Waste and Emergency Response (OSWER) provided Agency comments.
We reviewed OSWER’s comments, met with OSWER officials to discuss the comments, and
made changes to the report, as appropriate. Appendix A provides the full text of OSWER’s
comments and OIG’s response.




                                                5

                                                                                         11-P-0002 



OSWER agreed that the C2P2 Website did not reflect the extensive discussion of the risks and
benefits of CCRs in the proposed rule and also might be interpreted as implying EPA
endorsement of some unencapsulated beneficial uses on which the proposal seeks comment.
OSWER agreed that management should have exercised better controls to avoid any
misunderstanding regarding use of the EPA logo and disclaimer according to Agency protocols.
OSWER stated it takes the issues very seriously and acknowledged that it has already taken or is
initiating appropriate action. In its comments, OSWER stated that other options to removing the
C2P2 Website could have included adjusting the content of the Website to be consistent with the
content of the proposed rule and recommended that the OIG revise its recommendation. At the
time the OIG made its recommendation, we believed removal of the Website was the most
efficient action to take and was also consistent with EPA’s self-initiated actions to stop its
participation in the C2P2 program during the rulemaking process. EPA did not provide
information to demonstrate that updating the Website to be accurate and complete would be
more efficient than Website removal.

OSWER agreed with revised Recommendation 2, and has proposed an acceptable corrective
actions plan to address it. This recommendation is open with agreed-to actions pending. In its
90-day response to this report, OSWER should provide estimated or actual milestone completion
dates for its planned training activities and its review of the process for Website content
approval.

In its comments, OSWER requested that our report be revised to recognize that sand and gravel
and large-scale fill applications are treated by EPA as disposal and not beneficial use. The draft
report that OSWER reviewed did reflect this position. Specifically, the third bullet on page 3 of
the OIG’s report states: “EPA considers certain unencapsulated applications, such as fill in sand
and gravel pits and other large-scale fill applications, as disposal and not beneficial use. EPA
states [in its proposed 2010 rule] that it does not recognize these practices as legitimate
beneficial uses.” However, the OIG does not agree with OSWER’s comments that EPA has
effectively conveyed this position prior to release of its proposed rule (see Appendix A for
details).

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Your response will be posted on the OIG’s public Website,
along with our comments on your response. Your response should be provided in an Adobe PDF
file that complies with the accessibility requirements of section 508 of the Rehabilitation Act of
1973, as amended. Please provide your response to Carolyn Copper at copper.carolyn@epa.gov.
If your response contains data that you do not want to be released to the public, you should
identify the data for redaction. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. We have no objections to the further release of this report to
the public.

We will issue a final report that will discuss other OIG findings on whether EPA used accepted
and standard practices in determining that CCRs are safe for the beneficial uses EPA has
promoted. If there are questions, please contact Wade Najjum at (202) 566-0832 or
najjum.wade@epa.gov, or Carolyn Copper at (202) 566-0829 or copper.carolyn@epa.gov.




                                                 6

                                                                                                                                       11-P-0002



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1         Action Official             Date      Amount      Amount

     1        5     Direct the immediate removal of the C2P2 Website        C     Assistant Administrator for    07/02/10
                    during the coal ash rulemaking process.                      Solid Waste and Emergency
                                                                                          Response

     2        5     Identify the breakdowns in management controls          O     Assistant Administrator for
                    that allowed actions prohibited by EPA ethics                Solid Waste and Emergency
                    policies to occur and implement controls to                           Response
                    establish accountability.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                7

                                                                                          11-P-0002 



                                                                                      Appendix A

             OSWER Comments on OIG Draft Report
                    and OIG Response

August 17, 2010

MEMORANDUM

SUBJECT:       Response to Draft Early Warning Report: Website for Coal Combustion Products
               Partnership Conflicts with Agency Policies; Project No. OPE-FY10-0007

FROM:          Mathy Stanislaus/s/
               Assistant Administrator

TO:            Arthur A. Elkins, Jr.
               Inspector General

The Office of Solid Waste and Emergency Response (OSWER) reviewed the Office of Inspector
General’s (OIG) subject report and its recommendations. The purpose of this memorandum is to
transmit our response to those recommendations and to address other significant issues raised in
the report. The response is in two parts: first we address significant issues raised in the report,
and second, we respond to the OIG’s specific recommendations.

OIG FINDINGS

The OIG finds that EPA’s Coal Combustion Products Partnership (C2P2) Website is inconsistent
with the coal combustion residual (CCR) proposed rule because it does not identify large-scale
fill applications as disposal, does not list known beneficial use damage cases, and does not
emphasize EPA’s concerns about beneficial use of unencapsulated CCRs in road embankments
and agricultural applications.

OIG Response: This is an accurate representation of one of the OIG’s findings. We also find
that EPA appeared to endorse commercial products in the C2P2 case studies through the improper
use of the EPA logo and the absence of the required disclaimers.

As a general matter, OSWER agrees that the C2P2 Website was not fully in line with the
proposed rule. The preamble to the proposed rule presents an extensive discussion of beneficial
uses of CCRs. This discussion describes the full array of encapsulated and unencapsulated
beneficial uses. It notes that EPA has some concerns about unencapsulated beneficial uses and
seeks comment on these uses so that the Agency can make a more informed judgment about their
safety in the final rule. The preamble also notes that EPA believes that certain fill applications of
CCRs in fact represent disposal and references damage cases for these applications.




                                                 8

                                                                                                     11-P-0002 



The C2P2 Website did not reflect the extensive discussion of the risks and benefits of CCRs in
the proposal and also might be interpreted as implying EPA endorsement of some
unencapsulated beneficial uses on which the proposal seeks comment. In this respect, the
Website presented an incomplete picture of the Agency’s current technical thinking on the safety
of CCR beneficial uses. We believe that we addressed this concern at the time of the CCR
proposal by suspending active EPA participation in the C2P2 partnership. However, our recent
decision to terminate access to the Website should fully address the potential for confusion and
misinformation resulting from inconsistencies between the Website and proposed rule.
Nonetheless, the OIG report should be more precisely worded to differentiate between
unencapsulated beneficial uses and fill applications which EPA considers disposal. The May
2000 Regulatory Determination expressly recognized damage cases associated with sand and
gravel pits as landfill damage cases and thus involving disposal and not beneficial use.
Therefore, OSWER did not believe extensive discussion of the damage cases on the C2P2
Website, which was devoted to beneficial use, to be appropriate or necessary. Linking these
damage cases to unencapsulated CCR beneficial uses is inappropriate and misleading because
the proposed rule cites no damage cases for these uses, nor do the sand and gravel pit damage
cases provide such technical support. Moreover, the C2P2 Website did inform visitors to the site
that the damage cases were associated with disposal (not beneficial use). A link to the damage
cases was provided on the C2P2 Website with the following text to make it clear that the damage
cases were associated with disposal:

           The Fossil Fuel Combustion Waste page has information on damage cases relating to the
           placement of CCPs.3

Therefore, the OIG report should be revised to recognize that sand and gravel and large scale fill
applications are treated by EPA as disposal and not beneficial use. Further, the report should
make clear that EPA has no basis to imply that the damage cases regarding sand and gravel pits
and large scale fill applications are in any way connected to unencapsulated beneficial uses and
that, while the proposed rule raises some concerns about these uses, these concerns are not based
on the damage cases.

OIG Response: We acknowledge OSWER’s concurrence with OIG findings. OSWER has
recognized that its C2P2 Website contained an incomplete characterization of risks as well as
information that gives the appearance of a government endorsement of commercial products,
which is prohibited by Agency policy. OSWER has acted on, or developed plans to act on, the
OIG’s recommendation to address these problems.

OSWER makes comments regarding how it has treated the placement of CCRs in sand and
gravel pits and fill applications. OSWER’s comments attempt to demonstrate that EPA has
clearly and consistently communicated its position that the use of CCRs in sand and gravel pits is
disposal and not beneficial use and, therefore, any damage cases associated with sand and gravel
pits cannot be considered beneficial use damage cases. OSWER’s comments also attempt to
demonstrate that the OIG has erroneously stated, or implied, that sand and gravel pits and large-
scale fill operations have been strictly treated by EPA as beneficial use. To support its positions,
OSWER cited information contained in the May 2000 Regulatory Determination and a statement
3
    The abbreviation CCPs stands for coal combustion products; CCPs and CCRs are sometimes used interchangeably.


                                                        9

                                                                                           11-P-0002 





on the former C2P2 Website: “The Fossil Fuel Combustion Waste page has information on
damage cases relating to the placement of CCPs.”

The OIG cannot substantiate OSWER’s statement, “The May 2000 Regulatory Determination
expressly recognized damage cases associated with sand and gravel pits as landfill damage cases
and thus involving disposal and not beneficial use.” The OIG could find no references to ‘sand
and gravel pits’ in the May 2000 Regulatory Determination. Moreover, we do not agree that a
2000 reference to landfill damage cases conveys the Agency’s position on appropriate beneficial
uses of CCRs, given that the Agency expressly used its more current C2P2 Website for that
purpose. We do not agree that the statement – “The Fossil Fuel Combustion Waste page has
information on damage cases relating to the placement of CCPs” – which appeared on EPA’s
C2P2 Website, effectively conveys an Agency position that it considers sand and gravel pits and
large-scale fill applications as disposal and not beneficial use. Therefore, we do not agree with a
conclusion that, in the past, EPA has consistently and clearly communicated that it considers
sand and gravel pits and large-scale fill applications as disposal and not beneficial use.

The OIG’s report shows that EPA has taken a clear position in its 2010 proposed rule that it
considers certain unencapsulated applications, such as fill in sand and gravel pits and other large-
scale fill applications, as disposal and not beneficial use. Specifically, the third bullet on page 3
of the OIG’s report states, “EPA considers certain unencapsulated applications, such as fill in
sand and gravel pits and other large-scale fill applications, as disposal and not beneficial use.
EPA states [in its proposed 2010 rule] that it does not recognize these practices as legitimate
beneficial uses.” However, EPA did not effectively communicate or convey this position on the
C2P2 Website or in the May 2000 regulatory determination as described in OSWER’s comments.

The second major finding of the OIG involves concerns about case studies that were placed on
the Website – the case studies posted on the EPA Website, displayed the EPA logo, lacked
disclaimers, and thus improperly implied Agency endorsement of the products or companies.
OSWER agrees with the OIG findings that the case studies should have included disclaimers to
underscore that EPA was not endorsing the products or uses involved. In adding some of the
case studies to the administrative record for the rulemaking, we have removed the EPA logo and
inserted disclaimer language. However, by quoting specific disclaimer language, we believe the
report could erroneously suggest that the EPA regulations (5 CFR 2635) mandate a single
formulation of the disclaimer. In actual fact, the Office of General Counsel (OGC) has approved
use of other disclaimers and has specifically recommended use of the following disclaimer for
the case studies from the Website that we are adding to the administrative record for the
proposed rule: “Disclaimer of Endorsement: Reference herein to any specific commercial
products, process or service by trade name, trademark, manufacturer, or otherwise, does not
necessarily constitute or imply its endorsement, recommendation, or favoring by the United
States Government.” Therefore, we recommend revising the report to recognize that different
types of disclaimer wording are permissible and citing the disclaimer language the Agency is
using for the CCR rulemaking.




                                                 10 

                                                                                        11-P-0002 



OIG Response: The OIG acknowledges OSWER’s concurrence with the finding that Agency
endorsement of commercial products is implied through improper use of the EPA logo and lack
of disclaimers. The report has been modified to state OSWER’s position that OGC has
determined that other disclaimers are permissible. To the extent that EPA is modifying its
practices or language regarding disclaimers, it should also evaluate the need to formally update
Agency directives or policies on these matters for transparency and staff awareness.


RESPONSE TO RECOMMENDATIONS

OIG Recommendation #1

Direct the immediate removal of the C2P2 Website until the Agency makes its final policy and
regulatory determinations regarding beneficial use of all forms of CCRs.

COMPLETED.

OSWER Response: As the OIG notes in its report, OSWER has removed the C2P2 Website
while the program is being re-evaluated during the rulemaking process, and thus OSWER has
effectively implemented the OIG recommendation. Some relevant documents that form part of
the technical support for the rulemaking have been placed in the rulemaking docket and are
publicly available. The EPA logo was removed from all case study documents and appropriate
disclaimers were included on the case studies before they were placed in the docket.
Procedurally, however, OSWER believes the OIG recommendation would be more appropriate if
broadened to allow for other options. The OIG findings were of inconsistencies between the
C2P2 Website and the proposal, which could be remedied in several ways, including removing
the Website, or adjusting the content of the Website to be consistent with the content of the
proposed rule. Therefore, OSWER recommends that the OIG recommendation be revised to
encompass both options, and that it is appropriately within OSWER’s discretion to respond to
the findings by considering both approaches.

OIG Response: The OIG acknowledges OSWER’s implementation of Recommendation 1.
This recommendation will be closed upon report issuance. The OIG does not believe further
modifications to the recommendation are needed. OSWER maintains its discretion and authority
to modify future information that appears on the Website. The OIG recognizes that OSWER
may have new or modified content related to beneficial uses of CCRs to place on a Website or
have information to make available in the docket. In our opinion, an appropriate and efficient
action to take during the rulemaking process is to remove (or block) the Website content,
particularly the incomplete or misleading information. In our opinion, blocking all Website
content is similar to actions EPA initiated itself to stop its participation in the C2P2 program
during the rulemaking. Because this recommendation will be closed upon report issuance,
OSWER is not required to provide any additional information for this recommendation in its 90-
day response to this report.




                                               11 

                                                                                          11-P-0002 



OIG Recommendation #2

Identify the breakdowns in management controls that allowed the violation of EPA standards and
ethics policies, and implement controls to establish accountability. If staff person(s) responsible
for these violations can be identified, EPA should take appropriate administrative actions based
on the degree to which the violations of Agency policies were intentional.

OSWER Response: OSWER agrees that management should have exercised better controls to
avoid any misunderstanding regarding use of the EPA logo and disclaimer according to Agency
protocols. As a result, OSWER will provide training to the Office of Resource Conservation and
Recovery’s (ORCR) management team on the EPA standards and policies associated with the
use of the EPA logo and endorsement issues.

OSWER agrees that policies and procedures were not followed. However, OSWER disagrees
with the use of the word “violation” as found in this OIG recommendation because OSWER is
not aware that any formal legal determination has been made. OSWER recommends the term
“violation” be revised to reflect that policies and procedures were not followed.

Additionally, ORCR is reviewing its process for Website content approval to strengthen
management’s role. However, as noted in the OIG report, OSWER has not been able to identify
a responsible person or persons given the date when these documents originally began being
posted (i.e., 2003).

OIG Response: The OIG acknowledges OSWER’s agreement with Recommendation 2, that
better management controls should be applied to avoid improper use of the EPA logo and ensure
proper use of Agency disclaimers. OSWER’s proposed corrective actions plan to provide
training to the ORCR management team on the EPA standards and policies associated with the
use of the EPA logo and endorsement issues, and to review its process for Website content
approval to strengthen management’s role, is acceptable. This recommendation is open with
agreed-to actions pending. In its 90-day response to this report, OSWER should provide
estimated or actual milestone completion dates for its planned training activities and its review of
the process for Website content approval. Where applicable, the OIG has modified its use of the
word ”violation” with Agency standards or policies to reflect that prohibited actions or actions
that do not conform to Agency policy occurred. The OIG also acknowledges that OSWER has
been unable to determine the person(s) responsible for improper use of the EPA logo and has
modified the final report recommendation.

In conclusion, OSWER appreciates the opportunity to review this OIG Draft Early Warning
Report. OSWER clearly takes the issues very seriously and, as stated above, has already taken
or is initiating appropriate action.




                                                12 

                                                                                    11-P-0002


                                                                                Appendix B

                                    Distribution

Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Principal Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Acting Director, Office of Resource Conservation and Recovery, Office of Solid Waste and
    Emergency Response
Acting Deputy Director, Office of Resource Conservation and Recovery, Office of Solid Waste
    and Emergency Response
Director, Resource Conservation and Sustainability Division, Office of Resource Conservation
    and Recovery, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Inspector General




                                             13 

